C'OCKLE
2311 Douglas Street A L ega ] B rie fs E-Mail Address:

Omaha, Nebraska 68102-1214 contact@cocklelegalbriefs.com

Est. 1923
1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-123

SHARONELL FULTON, et al.,
Petitioners,
Vv.
CITY OF PHILADELPHLA, et al.,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICI CURIAE
CENTER FOR THE STUDY OF SOCIAL POLICY AND NATIONAL CENTER FOR LESBIAN
RIGHTS IN SUPPORT OF RESPONDENTS in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point
for the text and 10 point for the footnotes, and this brief contains 7368 words, excluding the parts

that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 19th day of August, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL NOTARY State of Hebrasha QO Jar bh Chk
i RENEE J. GOSS Q. .

My Comm. Exp. Seplember 5, 2023
Notary Public Y Affiant

 

39905
